                                  EVALUATION




 BUREAU OF LAND MANAGEMENT’S
 RENEWABLE ENERGY PROGRAM:
 A CRITICAL POINT IN
 RENEWABLE ENERGY DEVELOPMENT




Report No.: CR-EV-BLM-0004-2010       June 2012
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR
                                                                               JUN 12 2012

Memorandum

To:            Michael L. Pool
               Acting Director, Bureau of Land Management

From:                        '---~
               Mary L. Kendall
               Acting Inspector  ene 1 -
                                                ·


Subject:       Final Evaluation Report - Bureau of Land Management's Renewable Energy
               Program: A Critical Point in Renewable Energy Development
               Report No. CR-EV-BLM-0004-2010

     This memorandum transmits the results of our evaluation of the Bureau of Land
Management's (BLM) Renewable Energy Program. Our objective was to assess the effectiveness
ofBLM's development and management of its renewable energy program.

        We found that BLM is poised for a massive expansion of wind and solar projects. BLM
has taken aggressive action to increase its processing of renewable energy rights-of-way (ROW)
grants. BLM's focus on increasing the number of renewable energy projects, however, has
exposed some weaknesses in financial accountability and resource protection including
obligations to protect the Government's financial interests by collecting rental revenues,
managing the bond process, and by appropriate monitoring and enforcing ROW requirements.

       We make nine recommendations to improve the long-term management ofBLM's
Renewable Energy Program to ensure the accurate and timely collection of rents, for managing
the bond process, and for monitoring and enforcing ROW requirements. BLM substantially
concurred with all nine of our recommendations and agreed to implement them. Based on
BLM's response to the draft report (see appendix 3), we consider recommendations 2 and 3
resolved and implemented and the remaining seven recommendations resolved but not
implemented (see appendix 4). Accordingly, no further response to the Office oflnspector
General (OIG) on this report is necessary.

        The legislation creating the OIG requires that we report to Congress semiannually on all
audit reports issued, actions taken to implement our recommendations, and recommendations
that have not been implemented.

       We appreciate the cooperation and assistance of the BLM staff during our review. If you
have any questions regarding this report, please contact me at 202-208-5745.




                               Office of Inspector General I W ashington, DC
Table of Contents
Results in Brief ....................................................................................................... 1

Introduction ............................................................................................................. 3
   Objective ............................................................................................................. 3
   Background ......................................................................................................... 3

Findings................................................................................................................... 8
   Rental Revenues Collection ................................................................................ 8
   Bonds on Wind Projects ...................................................................................... 9
   Monitoring and Inspection ................................................................................ 13
   Competitive Bidding for Wind and Solar ROW ............................................... 17

Conclusion and Recommendations Summary ...................................................... 18
   Conclusion......................................................................................................... 18
   Recommendations Summary............................................................................. 18

Appendix 1: Scope and Methodology................................................................... 23
   Scope ................................................................................................................. 23
   Methodology ..................................................................................................... 23

Appendix 2: Potential Monetary Impact ............................................................... 24

Appendix 3: Bureau’s Response ........................................................................... 25

Appendix 4: Status of Recommendations ............................................................. 33




Cover Image: BLM inspector views a wind farm on BLM lands. Source: OIG
Results in Brief
The Bureau of Land Management (BLM) is poised for a massive expansion of
wind and solar projects. At the time of our review, BLM had 29 of 31 authorized
wind projects in operation, and 5 of 9 authorized solar projects under
construction. Based on the number of wind-testing projects and wind and solar
applications, wind projects may quadruple and solar projects may increase tenfold
in the near future.

BLM has taken aggressive action to increase its capacity to process renewable
energy grants for rights-of-way (ROW). BLM’s focus on increasing the number
of renewable energy projects, however, has exposed some weaknesses in its
management of these projects. Financial accountability and resource protection
are integral to the renewable energy program. These include obligations to protect
the Government’s financial interests by timely and accurately collecting rental
revenues and managing the bonding process, and to protect the country’s natural
resources by monitoring and enforcing grant requirements. Wind and solar
projects can cover thousands of acres and therefore have the potential for
biological, cultural, historical, paleontological, archaeological, and visual resource
degradation.

Secretary Salazar established the production, development, and delivery of
renewable energy as one of the U.S. Department of the Interior’s (Department)
highest priorities by signing Secretarial Order 3285, “Renewable Energy
Development by the Department of the Interior,” on March 11, 2009. The order
describes the need for strategic planning and a thoughtful, balanced approach to
domestic resource development. It also noted the Department’s role in
coordinating and ensuring environmentally responsible renewable energy
production and development.

We reviewed BLM’s renewable energy activities to assess the effectiveness of
BLM’s development and management of its renewable energy program. We
found that BLM has opportunities to improve in developing and implementing
renewable energy policies. For example, although BLM issued guidance on wind
rental payments and wind bonding requirements, it did not establish a process to
ensure timely implementation of the guidance. This resulted in a loss of
$1.2 million in rental revenues on 22 wind projects from 2009 through 2011 and
insufficient bonding by $8.5 million on 14 wind projects (see appendix 2). In
addition, BLM has not developed and implemented Bureau-wide guidance on
monitoring and inspecting wind and solar projects or for enforcing compliance
with ROW requirements. We also found that BLM could potentially generate
millions of dollars in additional revenues if it used a competitive bidding process.

We make nine recommendations to improve the long-term management of BLM’s
renewable energy program. Our recommendations present opportunities for BLM
to accurately collect rental revenues, manage the bonding process, monitor and


                                                                                    1
ensure compliance with ROW requirements, and generate additional revenues by
using a competitive bidding process for wind and solar ROW.




                                                                               2
Introduction
We evaluated the Bureau of Land Management’s (BLM) renewable energy
activities and found that BLM is poised for a massive expansion in renewable
energy construction and development of wind and solar projects. At the time of
our review, BLM had 29 of 31 authorized wind projects in operation. It also had
137 authorized wind-testing projects that could transition into full development
projects, and an additional 47 pending applications. BLM had five of nine
authorized solar projects just beginning construction, and another 103 applications
pending review.

Objective
Our objective was to assess the effectiveness of BLM’s development and
management of its renewable energy program.

Background
Secretarial Initiatives
On January 16, 2009, former Secretary Kempthorne signed Secretarial Order No.
3283, “Enhancing Renewable Energy Development on the Public Lands.” The
Order facilitates the U.S. Department of the Interior’s (Department) efforts to
achieve the goal that Congress established in section 211 of the Energy Policy Act
of 2005. That goal is to approve non-hydropower renewable energy projects on
public lands—projects with a total generation capacity of at least 10,000
megawatts (MW) of electricity per hour—by 2015. In the Order, the Department
declares its support for issuing permits for environmentally responsible
development of wind, solar, biomass, and geothermal resources on public lands.
The Assistant Secretary for Land and Minerals Management is responsible for
issuing permits for renewable energy projects in accordance with applicable laws
and regulations, and for establishing renewable energy coordination offices to
support permitting activities. Additional responsibilities under the Order include
consistently applying renewable energy policies, recovering costs associated with
processing renewable energy applications, and monitoring authorized projects.
The Federal Land Policy and Management Act of 1976 (FLPMA) authorizes
rental payments and cost recovery.

On March 11, 2009, Secretary Salazar signed Secretarial Order No. 3285,
“Renewable Energy Development by the Department of the Interior,” establishing
the production, development, and delivery of renewable energy as a high priority.
The Order describes the need for strategic planning and a thoughtful, balanced
approach to domestic resource development. It also outlines the Department’s role
in coordinating and ensuring environmentally responsible renewable energy
production and development.




                                                                                 3
History and Status of BLM’s Wind and Solar Activities
BLM manages 20.6 million acres of public lands in 11 Western States that have
commercial wind generation potential. BLM has collected $26 million in wind
energy rents ($20.5 million from generating facilities and $5.5 million from
testing projects) from 1984 through 2010, starting with California in 1984,
Wyoming in 1999, Arizona in 2006, and Utah in 2009. BLM has 31 authorized
wind projects. Twenty-nine of these projects are currently operating and have a
total installed capacity of 783 MW. The largest operating project covers 7,800
acres and generates 80 MW of electricity. BLM also has 137 authorized wind-
testing projects that may transition into energy development projects in the future,
and 47 wind applications pending.

BLM also manages more than 20 million acres of public lands that have potential
for solar energy development. These lands lie in six Western States. Solar energy
projects can provide significant amounts of electricity while emitting virtually no
greenhouse gases, but they require large areas of relatively flat land. Some
technologies also use substantial amounts of water, a scarce commodity in arid
climates where solar resources are the most productive. BLM has nine authorized
solar projects with a total generating capacity of 3,682 MW. Five projects are
under construction—four in California and one in Nevada. The largest authorized
project covers 7,025 acres, which will generate 1,000 MW of electricity. BLM
also has 103 solar applications pending.

In response to the Secretary’s renewable energy initiatives, BLM established 5
Renewable Energy Coordination Offices that, together, have 71 positions; and 6
Renewable Energy Support Teams with 35 positions. This represents a significant
investment in renewable energy resources.

Project Authorization
BLM authorizes grants for rights-of-way (ROW) for wind and solar projects
under Title V of FLPMA and Title 43, Part 2800, “Rights-of-Way,” in the Code
of Federal Regulations. BLM reviews ROW applications using a first-come-first-
considered process. ROW terms and conditions (called stipulations) contain all
the details applicable to a grant. By accepting the grant, the grantee agrees to
comply with all of the project’s stipulations.

BLM instruction memoranda (IM) establish guidance for the renewable energy
program. IM 2009-043, “Wind Energy Development Policy,” issued December
19, 2008, guides the Bureau on wind projects. The IM was to expire on
September 30, 2010, but BLM extended it to September 30, 2012.

BLM authorizes wind projects using three types of ROW grants:

   •   Type 1 Site-specific Grant for Testing and Monitoring—A site-specific
       grant for individual, wind-measuring, meteorological towers and facilities.
       These are term limited to 3 years with no renewal option.


                                                                                   4
   •   Type 2 Project Area Grant for Testing and Monitoring—A wind project
       grant for a larger site-testing and monitoring area where wind resource
       information is collected to determine the wind energy resource potential of
       the area. These grants have a term of 3 years that BLM may renew for an
       additional 3 years if the grantee submits an application for a Type 3 wind
       energy development ROW, along with a plan for developing the project.
   •   Type 3 Development Grant—A development grant for wind energy with
       associated wind turbines as well as on-site access roads, electrical and
       distribution facilities, and other support facilities. BLM established the
       term of wind project grants at 30 years to recognize the overall costs and
       useful life of wind energy facilities.

IM 2011-003, “Solar Energy Development Policy,” issued October 7, 2010, is the
current guidance on solar projects. Due to the substantial investments required for
solar energy projects and the projected life of these facilities, BLM issues these
grants for a term not to exceed 30 years.

Rentals and Fees
Grantees pay rents on wind projects in advance for a full calendar year with the
following terms:

   •   Type 1 Site-specific Grant for Testing and Monitoring—A minimum
       rental rate of $100 per meteorological tower per year. Grantees can pay in
       advance for the full 3-year term of the ROW.
   •   Type 2 Project Area Grant for Testing and Monitoring—The higher of
       $1,000 per year, or $1 per acre per year. Grantees can pay in advance for
       the full 3-year term of the ROW.
   •   Type 3 Development Grant—Based on the anticipated MW capacity of the
       project. The current rate is $4,155 per MW.

Rents for solar projects include two components: base rent charged on a per acre
basis starting when BLM issues the ROW, and an MW capacity fee that is phased
in over 5 years once the project starts generating power. BLM bases these rents
and fees on the approved MW capacity and the type of solar project.




                                                                                   5
Figure 1. Wind turbines near Palm Springs, CA. Rents for wind rights-of-way vary based
upon capacity and type of project. Source: OIG.

In addition to rents, all wind and solar energy ROW applications and
authorizations are subject to cost recovery fees for Bureau processing and
monitoring. After BLM receives and conducts an initial review of the ROW
application, it estimates the cost of processing the application and issuing a ROW
grant. Both BLM and the applicant sign an agreement regarding the Bureau’s
recovery of these processing costs.

After processing the application, BLM estimates its costs for monitoring the
construction, operation, maintenance, and termination of the project; and for
protecting and ensuring the rehabilitation of the lands covered by the ROW grant.
BLM and the applicant then sign another cost recovery agreement. With both
processing and monitoring fees, BLM establishes fee schedules based on the
estimated number of Federal work hours for both activities with fixed dollar
amounts for estimates of 1 to 50 hours. For those projects that exceed 50 hours,
BLM and the grantee negotiate reimbursable agreements with varying fee
amounts based on the estimated processing and monitoring hours.

Bond Requirements
BLM uses bonds to ensure compliance with ROW stipulations and applicable
regulations, and to protect the Government against loss, damage, or injury to
human health, the environment, or property. Currently, the minimum bond rate
for wind projects is $2,000 per meteorological tower for wind-testing

                                                                                         6
authorizations (Type 1 and 2 grants) and $10,000 per wind turbine for
development projects (Type 3).

Instead of establishing minimum bond amounts, the solar IM describes the three
required components of the bond to cover: 1) environmental liabilities; 2)
decommissioning, removal, and disposal of improvements and facilities; and 3)
site reclamation, revegetation, and restoration. It also establishes a Solar Energy
Bond Review Team to assist BLM’s state and field offices in reviewing
reclamation cost estimates and developing bond requirements.




Figure 2. This is a solar project in California that uses a central power tower in the middle of
a circle of mirrors. Source: BLM.




                                                                                              7
Findings
Rental Revenues Collection
We found that BLM lost rental revenues of $1.2 million on 22 wind projects for
calendar years 2009 through 2011 because it did not implement increased rental
rates (see appendix 2).

In December 2008, BLM increased the annual rental rate for wind projects from
$2,365 per MW (established in October 2002) to $4,155 per MW. Since
companies pay rents for the calendar year in advance, any changes in rental rates
are effective the next billing date after rate revisions. BLM did not issue the
revised rate with sufficient time to allow field offices to amend the ROW
agreements for 2009 and issue the bills for 2009 with the new rental rate.

Furthermore, BLM did not establish a process to ensure that all field offices
implemented the new rate. We found two field offices in California, the Palm
Springs-South Coast Field Office and the Ridgecrest Field Office, never
implemented the new rate for wind projects we reviewed. The Palm Springs-
South Coast Field Office was still using rental rates established as far back as
1997. We determined that if BLM had issued the revised rental rate earlier and
implemented the new rate on all 22 wind projects in California, BLM could have
collected $404,000 more in rental revenues each year from 2009 through 2011,
totaling $1.2 million.

Field office personnel acknowledged that they knew about the change in the rental
rate and that they had not revised the rates on these agreements. Ridgecrest Field
Office personnel said that there were some questions about how to apply the new
rental rate and that they had asked for guidance from the State Office. They did
not have an answer from the State Office at the time of our visit.

We issued a Notice of Potential Findings and Recommendations to the district
manager for the California Desert District Office with our findings and
recommendations to apply the new rental rate to all District wind projects by
January 1, 2012, and develop and implement procedures to ensure that any future
rate changes will be identified and applied. We also recommended that BLM
consult with appropriate policy and legal staff to determine whether the new
rental rate might be retroactively applied in order to collect revenues lost from
2009 through 2011. The California Desert District Office responded that it started
taking actions to address our recommendations, including reviewing regulations,
and it will take appropriate action pending the outcome of its review.

In examining data from the Palm Springs-South Coast Field Office, we found that
the office was using a rental rate of $2,630 per authorized MW, $265 more than
the $2,365 rate applicable from 2003 through 2008. This may have been
acceptable and intended by BLM because the October 2002 policy that
established the $2,365 rate cited this as a “minimum rent.” We are raising this

                                                                                    8
issue because rate-setting policies after 2002 no longer call the rate a “minimum
rate,” but simply the “rental fee,” which raises the question of whether or not a
refund is appropriate after considering the increased rate starting 2009.

 Recommendations

    1. Develop and implement procedures to ensure collection of the current
       rental rate on all existing wind energy agreements, and timely issuance
       and prompt application of future rate changes to all wind projects.

    2. Determine whether BLM can make the rental rate from December
       2008 retroactive in order to collect wind revenues lost during calendar
       years 2009 through 2011.

    3. Determine whether a refund is appropriate for the Palm Springs-South
       Coast Field Office companies that were charged a higher rate than the
       established minimum rate from 2003 through 2008.


Bonds on Wind Projects
Bond Requirements on Wind Projects
BLM does not have consistent bond requirements for wind projects. Bonds
protect the Government’s interests in case of loss, damage, or injury to human
health, the environment, or property. The Bureau does not consistently manage
bond information or surety instruments to ensure compliance with ROW
stipulations and regulatory requirements. As a result, we found 14 wind projects
that were either not bonded or insufficiently bonded by a total of $8.5 million (see
appendix 2).

Bonding is critical on wind and solar projects because of the “boom” environment
created in the wind and solar renewable energy area with the Federal and state
governments’ renewable energy initiatives, the availability of funding with the
American Reinvestment and Recovery Act of 2009, Department of Energy loan
guarantees, and tax incentives at both the Federal and state level. BLM
experienced this “boom” through the dramatic increase in renewable energy
applications, particularly in solar ROW applications in the California Desert
District, where solar applications increased from only 2 in 2004 to 130 in 2008.
According to BLM renewable energy personnel, the solar energy initiative hit so
fast there was very little time for planning by either BLM or companies, with
some companies rushing to submit applications just to place “holds” on BLM
land. There were concerns about companies creating a speculative environment
by trying to obtain a ROW and then sell or transfer the ROW for profit. The
changing technologies and financial commitment required of wind and solar
projects also creates a high-risk business environment.




                                                                                    9
This volatile business environment is evident in existing wind projects. For the 31
authorized wind ROW, 21 have been reassigned or changed their names. Two of
these have gone through bankruptcy and subsequent reassignment. Eight of the 21
companies have gone through 3 or more name changes.

The uncertain business environment for solar projects is clearly demonstrated by
the recently announced bankruptcy of Solar Millennium AG, a German company.
Its American subsidiary, Solar Trust of America, currently holds two solar ROW
and has two additional applications under review. Development of Solar
Millennium’s 1,000 MW Blythe project is currently on hold because the company
announced its intent to change the project’s technology. Such uncertainties
reinforce the importance of appropriate levels of performance and reclamation
bonding.

BLM did not require bonds on all wind projects. Prior to 2006, BLM’s wind
policy stated: “A bond is discretionary by the authorized officer, but will usually
be required for wind energy development right-of-way grants to ensure
compliance with the terms and conditions of the authorization and the
requirements of the regulations, including reclamation.” Despite this intent,
however, BLM field offices did not enforce a bond requirement since the policy
made bonds discretionary.

In 2006, the wind policy was revised to make bonding mandatory on new wind
energy development projects. The policy did not require, however, bonding on
existing wind projects. Bonds on testing projects (Types 1 and 2 ROW) also
remained discretionary. The policy suggested $2,500 bonds for wind turbines but
stated the actual amount of the required bond would be determined during the
ROW authorization process based on site-specific and project-specific factors.

BLM’s current wind policy that was issued in December 2008, requires minimum
bonds of $2,000 per meteorological tower on Types 1 and 2 wind testing ROW
and $10,000 per wind turbine for development projects. It also states that the
amount of the bond will be determined during the ROW authorization process
based on site-specific and project-specific factors. The explicit requirement for
bonds on existing projects, however, remains discretionary because the policy
states: “Existing wind energy right-of-way authorizations requiring amendments
may include provisions of this IM” [emphasis added].

We found that the Palm Springs-South Coast Field Office did not require bonds
on 4 wind projects, 1 of which supports about 460 turbines. The Field Office also
obtained bonds that were less than the minimum requirements for 10 other
projects. In total, BLM did not bond, or insufficiently bonded, 14 projects by
$8.5 million (out of 16 wind projects’ files reviewed), leaving BLM at risk to
future liabilities for land reclamation and the potential damage to natural
resources.




                                                                                  10
We also found that the Pahrump Field Office in Las Vegas, NV, did not bond five
projects that are testing wind energy using meteorological towers. We issued a
Notice of Potential Findings and Recommendations to BLM reporting the lack of
bonds on two wind-testing projects at the Pahrump Field Office and
recommended bonding these projects and identifying any other projects without
bonds. The acting state director for Nevada agreed with our findings and
recommendations. She also identified three additional projects without bonds and
assured us that BLM would obtain bonds from the grant holders.

Also in response to our Notice of Potential Findings and Recommendations, BLM
issued new wind policies in April 2011 in an effort to establish bonding
requirements for all wind projects. 1 We observed, however, that this policy does
not rescind and replace wind policies issued in 2008, but reiterates and provides
guidance on them. As a result, some BLM personnel and the public may still
believe bonding on existing wind projects is discretionary, which according to
BLM’s Energy Policy Team manager, was not intended.

Bond Coverage on Wind Projects
We found that current minimum bonding requirements for wind projects might
not cover potential reclamation costs. The current wind policy does not provide
useful instructions on how to determine the appropriate bond amount for wind
projects. Instead of including specific instructions for conducting site-specific
analysis and assessment to determine bond amounts for wind projects, the policy
establishes a minimum bond amount of $10,000 per turbine. BLM field personnel
did not know how this minimum bond amount was developed, and expressed their
belief that this rate should be higher. Existing bonds we found covering projects
for wind energy development ranged from $171 per turbine (a $12,500 bond to
cover 73 turbines) to $50,000 per turbine.

The Government Accountability Office (GAO) reported similar issues in BLM’s
bonding of oil and gas leases in their February 2011 report 2, saying BLM has not
consistently implemented its policies for managing potential oil and gas well
liabilities. GAO reported that BLM faces two challenges in this area: 1) the
minimum bond amounts, not updated in more than 50 years, may not be sufficient
to encourage all operators to comply with reclamation requirements; and 2)
limitations with the data system BLM uses to track oil and gas information on
public lands restricts BLM’s ability to evaluate potential liability and monitor
agency performance. GAO recommended that BLM develop a comprehensive
strategy to increase minimum bond amounts and improve its data system to better
evaluate potential liabilities and agency performance.



1
  Bureau of Land Management, IM 2011-096, Certification of Bonding—Wind Energy Site Testing and
Wind Energy Development Authorizations (April 7, 2011). The IM requires bonds on all wind energy testing
and development projects. It also requires BLM state directors to certify that all wind energy authorizations
in their state were bonded.
2
  Government Accountability Office, GAO-11-292, Oil and Gas Bonds; BLM Needs a Comprehensive
Strategy to Better Manage Potential Oil and Gas Well Liabilities (February 2011).

                                                                                                          11
We did find examples of promising practices in determining bond requirements.
For one project, a realty specialist at the Palm Springs-South Coast Field Office
determined that neither the minimum bond amount of $10,000 per turbine nor the
existing bond rate of $13,000 per turbine was enough. She researched salvage and
reclamation costs on comparable wind projects and determined a bond amount of
$50,000 per turbine was appropriate, considering decommissioning and removal
of the turbines, access roads, and project facilities, and reclamation of the site.
She requested $200,000 in bonds for four wind turbines. The company complied.

A realty specialist at the Ridgecrest Field Office also determined that the $10,000
bond per turbine was not enough. On a project that had eight wind turbines, he
developed an estimate of $169,800 ($21,225 per turbine) for the bond by taking
into consideration compliance monitoring, decommissioning, removal, and site
reclamation for the turbines, foundations, and access roads.

A promising practice on solar projects is the use of bond review teams. These
teams assist state and field offices in developing site-specific bond requirements
for solar energy projects. BLM’s solar policy contains very detailed instructions
on requirements for solar bonds and the necessary components for establishing
the bond amounts. This process was used on a 1,000 MW solar project in
California covering 7,025 acres. The bond review team in the State Office
reviewed the company’s engineering estimates for decommissioning and
reclamation of the project and determined the $1.08 million performance and
reclamation bond amount for the initial construction phase of the project. As the
project progresses into the power generation phase, a new bond amount will be
determined.

Bond Management
We found that BLM is not effectively managing the bond process on wind
projects. BLM has an incomplete and inaccurate inventory of bonds for wind
projects. We found examples of inaccurate bond information in BLM’s land and
minerals database Legacy Rehost System, called LR2000, at the field offices we
visited. The inaccuracies included incorrect bond amounts and incorrect numbers
of meteorological towers and wind turbines.

Field personnel told us that the bonding information is only as good as the data in
LR2000, and that sometimes they do not input this data. In an effort to improve
managing bonds, BLM added requirements in the April 2011 wind policy for all
field offices to review and update bond data on wind projects in LR2000’s “Bond
and Surety System,” and to certify this information to BLM Headquarters
annually.

BLM also still holds bonds for unidentified, transferred, or closed projects. In the
Palm Springs-South Coast Field Office, we found six certificates of deposit (CDs)
from 1986 that totaled $62,500. Field office personnel did not know which wind
projects the CDs covered and speculated that the projects might have been
transferred or closed. They told us they knew about the CDs, but had not done the

                                                                                 12
research necessary to determine their proper disposition. We issued a Notice of
Potential Findings and Recommendations to BLM reporting these as unidentified
bonds and recommended corrective action. The acting manager for the California
Desert District responded that BLM agreed with our findings and
recommendations.

 Recommendations

     4. Issue an updated wind IM that clearly requires bonds on all projects.

     5. Reassess the minimum bond amounts for wind projects as well as
        methods for determining the bond amount, including expanding the use
        of a bond review team.

     6. Track and manage bond information on all renewable energy projects,
        including the amount of the bond, when BLM requested and received
        the bond, contact information for the bonded party, the type of bond,
        and when the bond requires updating.

     7. Develop and implement procedures to ensure that when a project is
        transferred, BLM returns the first bond to the company that obtained it
        and requests a new bond from the newly assigned company.


Monitoring and Inspection
BLM does not have consistent, Bureau-wide guidance for monitoring and
inspecting wind and solar ROW. BLM did not monitor or enforce the changing
rental and bond requirements for wind projects. This resulted in lost rental
revenues of $1.2 million, insufficient bonding of $8.5 million on 14 wind projects,
and incomplete and inaccurate bond data. Bureau-wide guidance will also enable
industry to know what to expect when planning and developing renewable energy
projects.

Monitoring
Wind and solar projects cover large areas—thousands of acres in some cases.
These sites may have biological, cultural, historical, paleontological,
archaeological, and visual considerations. There may also be environmental
concerns related to wind and solar projects regarding the use of chemicals such as
pesticides, herbicides, and hazardous materials. As an example of the potential
scale of renewable energy projects, BLM approved the largest solar project in
California—the Blythe Solar Power Project—a 1,000 MW project covering 7,025
acres. It will include solar power units and ancillary facilities including buildings,
access and maintenance roads, bioremediation areas, wastewater treatment
facilities, perimeter fencing, gas pipelines, water wells, fiber optic lines, and
power lines. Wind-testing projects can also cover large areas. For example, BLM


                                                                                    13
issued a testing and monitoring ROW for a wind project in Nevada that
encompassed 34,456 acres.

Monitoring ROWs provides assurance that the grantee is complying with the
grant requirements on both the project and program levels. Individual projects
need on-the-ground monitoring for changing circumstances such as amendments
to the ROW agreement, changing bond levels, changing rental rates, and evolving
project life-cycle phases. Life-cycle phases include ROW issuance, project
development, construction, operations (power generation), maintenance, and
decommissioning (shutdown). ROW agreements can have extensive project
stipulations. For example, one authorized solar ROW agreement contains 51
stipulations covering 14 pages of text. Each stipulation requires monitoring and
possible enforcement.

Inspection
Inspection ensures compliance with the terms and conditions of individual ROW
grants at the project level. ROW agreements do not specifically cite BLM’s
inspection, monitoring, or enforcement activities, but do include provisions that
the holder will pay monitoring fees for BLM’s costs, from construction through
termination of the ROW.

Our review of wind project files revealed very little inspection documentation for
wind projects and no monitoring plans. One BLM field manager told us that wind
projects “run themselves” and do not have many issues requiring monitoring.

During our fieldwork, however, we learned that continued monitoring is
important to ensure the project site is properly maintained and safe. Monitoring
activities can identify incidents such as collapsed wind turbines, bird deaths as a
result of hitting wind turbines, damage from fallen meteorological towers, and oil
leaks from hydraulic systems.

We found one incident of an unreported, collapsed wind turbine. The collapsed
wind turbine was on the only operational BLM wind project in Wyoming in
November 2010. The turbine was 1 of 33 turbines on a 21 MW wind project in
operation since 1999. The operator did not report the collapsed turbine to BLM.
BLM’s headquarters personnel found out about the collapsed turbine from
pictures posted on Facebook™ and notified the field office in January 2011.
According to BLM, the ROW has changed ownership several times. Personnel
from the current company said they were not aware they had to report the incident
to BLM even though reporting requirements are clearly spelled out in the ROW.




                                                                                 14
Figure 3. Collapsed 600 kilowatt turbine on BLM wind project in Wyoming that went
unreported for several weeks. Source: BLM.

BLM asked the company to investigate the cause of the collapsed turbine. The
company submitted a report in July 2011 summarizing the results of the
investigations and analyses conducted by the manufacturer and an independent
wind energy consultant. The report concluded that the cause of the turbine
collapse was a hydraulic system failure during a power outage, which, combined
with high winds, caused the turbine blades to spin faster than their designed
speed, thereby overstressing the turbine. The report identified the root cause of the
hydraulic system failure as a faulty O-ring that caused significant oil leakage.

BLM’s greatest concern was the risk to Native American archaeological resources
and the environment. The collapsed wind turbine occurred near 25 archaeological
sites (hearths and cairns). Although the collapsed turbine did not damage any of
the sites, activities removing the turbine may come within 20 feet of ancient
cairns. The collapsed turbine also leaked hydraulic fluids. The company wanted to
delay the cleanup of the collapsed turbine to do more analysis after the 2011
winter, but BLM required the removal by October 2011 because of its concerns
related to the archaeological resources and leaking fluids.

The company’s report required maintenance and inspections related to hydraulic
components to be performed with extreme care to prevent foreign objects from
entering the hydraulic system. The report also recommended that the company
manually check key components frequently, and that remedial action be taken if
components have failed.

If BLM had conducted periodic site inspections of this project, the oil leaks may
have been identified sooner and the hydraulic system failure may have been



                                                                                    15
prevented. We were informed that this project was incorrectly coded in LR2000
in 1999 and, therefore, was never identified as requiring a compliance check.

Monitoring Fees
BLM has no Bureau-wide policy for monitoring and enforcement, leaving field
offices to develop their own practices. We found considerable inconsistency in
monitoring fees at the field offices we visited. At one field office, we reviewed 17
wind project files and found that BLM did not collect monitoring fees for 9 of the
projects. For the other eight wind projects, monitoring fees ranged from $5,000
annually to one payment of $5,373 for the 30-year term of the ROW. In most
cases, field office personnel did not document how they determined the
monitoring fees. In addition, personnel informed us that the monitoring fees
reported in LR2000 were unreliable due to a failure to code them correctly.

At one field office, personnel collected monitoring fees for two wind-testing
projects, but the amounts were disparate. For one testing project covering 14,222
acres, the office collected only $354 in monitoring fees based on BLM’s fee
schedule. For the other testing project covering 34,456 acres, the office collected
a monitoring fee of $18,853. The field office staff did not document how this fee
was determined.

We also found inconsistent monitoring fees for solar projects. One field office
used a flat fee of $50,000 each for two solar projects in Las Vegas (a 50 MW
project covering 619 acres and a 484 MW project covering 4,350 acres). Another
field office, however, developed detailed estimates of $606,000 for a 1,000 MW
project covering 7,025 acres and $579,500 for a 250 MW project covering 1,950
acres in Palm Springs.

Third-party Contracting
We also found BLM is using third-party contracting for monitoring and
compliance without any Bureau guidance or management controls over the
process. BLM is using third-party contractors for six solar projects authorized in
California and one wind project authorized in Utah. The ROW grantee contracts
for and pays the monitoring and compliance contractor. During this time of
Government austerity, use of third-party contractors may be a viable solution to
budget reductions and staffing shortages. BLM needs to maintain an oversight
role, however, since inspecting and monitoring wind and solar projects is
primarily BLM’s responsibility, and building management controls into the
process will decrease inconsistency and reduce the risk of noncompliance. One
potential option may be a self-inspection and self-certification process with
consequences for noncompliance. For example, on oil and gas leases, BLM
requires industry to self-inspect and the Department has authority to penalize false
reporting.




                                                                                  16
 Recommendation

    8. Develop and implement Bureau-wide guidance for monitoring and
       enforcement on solar and wind projects, including but not limited to—
         •   a consistent process for developing fees for monitoring projects;
         •   procedures to plan, conduct, and document monitoring and
             enforcement of regulations and stipulations;
         •   controls over the use of third-party contractors for monitoring
             and compliance; and
         •   self-reporting and self-certification with consequences for non-
             compliance.


Competitive Bidding for Wind and Solar ROW
In one case in June 2004, BLM used a competitive bidding process for wind
energy development instead of the current first-come-first-considered ROW
application process. BLM’s Palm Springs-South Coast Field Office accepted bids
from five companies for a preferential right to apply for a ROW to construct,
operate, and maintain wind energy testing and generating facilities on 285 acres.
BLM selected the winning bid of $226,500, or $795 per acre. Ordinarily, BLM
would have received nothing up front and then the standard ROW fees after
issuing the grant.

We estimated that BLM could potentially generate almost $2.5 million in
additional revenues if the $795 per acre was applied to the 3,067 acres of BLM
land under wind ROW in this area. Of the 19 wind energy development ROW in
this area, 15 are due to expire by the end of 2015. Nationally, BLM has more than
30,000 acres currently under wind ROW and more than 31,000 acres under solar
ROW. In addition, BLM has identified almost 21 million acres of public lands
with wind energy development potential, and more than 20 million acres that have
the potential for solar energy development.

BLM informed us that it has initiated formal rulemaking for a competitive bidding
process for wind and solar development. BLM drafted an Advance Notice of
Proposed Rulemaking that is currently going through its review process. With the
demonstrated success of the Palm Springs-South Coast Field Office, the imminent
expiration of several ROW in this area, and the current and future wind and solar
energy development potential on BLM land, the timing is right for BLM to take
the initiative to obtain fair market value for public lands.

 Recommendation

    9. Develop and implement Bureau-wide guidance for using competitive
       bidding on wind and solar ROW.



                                                                                 17
Conclusion and Recommendations
Summary
Conclusion
With the projected increase in wind and solar projects on Government lands, the
urgency of protecting the people’s interests through monitoring and enforcing
ROW requirements will increase substantially. By implementing our
recommendations, BLM will appreciably improve its immediate and long-term
project management. This will involve few additional resources, but will create
greater integrity and accountability within the renewable energy program.

BLM responded to the findings and recommendations in our draft report on April
9, 2012 (see appendix 3). BLM substantially concurred with all nine
recommendations and completed two of the recommendations (see appendix 4).
BLM plans to complete corrective actions for the remaining seven
recommendations by April 2013. The responsible official for Recommendations
1, and 4 through 9, is the Assistant Director, Minerals and Realty Management.
The responsible official for Recommendations 2 and 3 is the State Director,
California State Office.

Recommendations Summary
   1. Develop and implement procedures to ensure collection of the current
      rental rate on all existing wind energy agreements, and timely issuance
      and prompt application of future rate changes to all wind projects.

       BLM Response: BLM concurred with this recommendation. BLM has
       procedures to ensure it is collecting current rental rates on existing ROW
       grants for the testing and development of wind sites. BLM issued wind
       energy policy IM 2009-043 on December 22, 2008, which addresses
       processing, rental, and bonding wind energy projects. It provides guidance
       to BLM’s state and field offices. Many of the 2009 rental bills had already
       been sent to existing grant holders pursuant to the previous rental policy,
       as established by BLM policy IM 2003-020 in October 2002. The updated
       rental rate, as identified in wind energy policy IM 2009-043, was not
       issued with the intent of amending existing grant-holder rental bills. After
       BLM sent the initial bills to the grant holders, BLM provided a rental
       notice and bill wherein grant holders were required to pay the difference in
       rents to BLM for the years 2009 through 2011.

       BLM is also currently in rulemaking for a competitive wind and solar
       energy leasing program that will also include requirements for paying
       current rental fees for all wind and solar energy authorizations.



                                                                                18
   BLM will establish an implementation plan to ensure BLM offices follow
   the existing procedures and policy guidance. The plan will include regular
   conference calls, video broadcasts, and an internal review of records to
   ensure BLM receives current rental rates on all existing wind energy
   authorizations.

   Office of Inspector General (OIG) Analysis of BLM Response: We
   consider this recommendation resolved, but not implemented. The
   recommendation will be referred to the Assistant Secretary for Policy,
   Management and Budget for tracking its implementation.

2. Determine whether BLM can make the rental rate from December 2008
   retroactive in order to collect wind revenues lost during calendar years
   2009 through 2011.

   BLM Response: BLM concurred with this recommendation. BLM
   California State Office, in consultation with the Pacific Southwest
   Regional Solicitor’s Office, determined that a retroactive rental for the
   calendar years 2009 through 2011 was appropriate. The California State
   Office sent decision letters in July 2011 to the 21 holders of existing
   grants regarding the adjusted rental for those years. Sixteen grant holders
   have paid in full.

   OIG Analysis of BLM Response: We consider this recommendation
   resolved and implemented. No further action is required.

3. Determine whether a refund is appropriate for the Palm Springs-South
   Coast Field Office companies that were charged a higher rate than the
   established minimum rate from 2003 through 2008.

   BLM Response: BLM concurred with this recommendation. BLM
   determined, in consultation with the Pacific Southwest Regional
   Solicitor’s Office, that a refund of rentals collected on existing
   authorizations charged at a rate higher than the established “minimum”rate
   from 2003 through 2008 is not appropriate. Those rentals were charged
   based on BLM policy IM 2003-020 which stated that the rental was a
   “minimum rent,” allowing for a higher rental payment if determined
   appropriate by BLM.

   OIG Analysis of BLM Response: We consider this recommendation
   resolved and implemented. No further response is required.

4. Issue an updated wind IM that clearly requires bonds on all projects.

   BLM Response: BLM partially concurred with this recommendation. The
   OIG draft report noted that IM 2011-096 did not rescind and replace
   BLM’s 2008 wind-energy policy guidance. IM 2011-096, however,


                                                                              19
   requires bonds for all wind projects and requires that bonds be entered into
   LR2000. Under this IM, each BLM state director must submit an annual
   certification of bond status to the Washington Office.

   The 2011 annual certifications have been submitted to the Washington
   Office, ensuring that bonds are received on all site testing and
   development authorizations and entered into LR2000. Where an
   authorization is missing a bond, a letter of noncompliance has been issued
   to the holder, which includes a timeframe to provide the bond to BLM.
   BLM’s current rulemaking effort for the competitive wind and solar
   energy leasing program will also include requirements for bonds on all
   wind site testing, and wind and solar development authorizations.

   BLM will establish a plan to ensure that existing procedures and policy
   guidance to the BLM offices are followed, that there is a complete
   understanding of the policy, that bond information is promptly and
   accurately entered into LR2000, and that the annual certification required
   by IM 2011-096 is received from each BLM state director. The plan will
   include regular conference calls, video broadcasts, and an internal review
   of records to ensure bonds are received on all wind energy authorizations.

   OIG Analysis of BLM Response: We consider this recommendation
   resolved, but not implemented. The recommendation will be referred to
   the Assistant Secretary for Policy, Management and Budget for tracking
   its implementation.

5. Reassess the minimum bond amounts for wind projects as well as methods
   for determining the bond amount, including expanding the use of a bond
   review team.

   BLM Response: BLM concurred with this recommendation. BLM will
   review the minimum bond requirements for wind projects based upon
   bonds for recently authorized projects and the methods for determining
   bond amount, including the use of a bond review team. BLM will issue
   policy guidance, if appropriate.

   OIG Analysis of BLM Response: We consider this recommendation
   resolved, but not implemented. The recommendation will be referred to
   the Assistant Secretary for Policy, Management and Budget for tracking
   its implementation.


6. Track and manage bond information on all renewable energy projects,
   including the amount of the bond, when BLM requested and received the
   bond, contact information for the bonded party, the type of bond, and
   when the bond requires updating.



                                                                            20
   BLM Response: BLM concurred with this recommendation. IM 2011-
   096 requires entering bonds for all wind projects into LR2000. This
   includes entering the information suggested in Recommendation 6. Under
   this IM, each BLM state director must submit an annual certification of
   bond status to the Washington Office. The BLM state directors also are
   required to ensure that bonds are received on all site testing and development
   authorizations and entered into LR2000. Where an authorization is missing a
   bond, BLM issued a letter of noncompliance to the holder, which includes a
   timeframe to provide the bond to BLM.

   Bond information for solar energy development projects is required as a
   standard practice. BLM’s Washington Office has reviewed, prior to
   approval, every solar energy development project authorized. A
   component of the review is an evaluation of the bond amount for the
   development facility. BLM policy IM 2011-003 requires the submission of
   the bond to BLM prior issuing a Notice to Proceed for project
   development and is subject to Solicitor review prior to acceptance by
   BLM.

   BLM will review data entered in LR2000 for both wind and solar
   authorizations and determine if additional fields are necessary to better
   track and manage bond information. Additionally, BLM will establish an
   implementation plan for IM 2011-096 as it relates to wind energy
   authorizations and ensure bond information is collected for solar energy
   authorizations. The implementation plan will include conference calls,
   video broadcasts, and Washington Office internal records reviews.

   OIG Analysis of BLM Response: We consider this recommendation
   resolved, but not implemented. The recommendation will be referred to
   the Assistant Secretary for Policy, Management and Budget for tracking
   its implementation.

7. Develop and implement procedures to ensure that when a project is
   transferred, BLM returns the first bond to the company that obtained it and
   requests a new bond from the newly assigned company.

   BLM Response: BLM concurred with this recommendation. BLM will
   develop and implement policy guidance to ensure that it receives new
   bonds as part of the approval process for an assignment, and that it returns
   old bonds.

   OIG Analysis of BLM Response: We consider this recommendation
   resolved, but not implemented. The recommendation will be referred to
   the Assistant Secretary for Policy, Management and Budget for tracking
   its implementation.


                                                                               21
8. Develop and implement Bureau-wide guidance for monitoring and
   enforcement on solar and wind projects, including but not limited to—

       •   a consistent process for developing fees for monitoring projects;
       •   procedures to plan, conduct, and document monitoring and
           enforcement of regulations and stipulations;
       •   controls over the use of third-party contractors for monitoring and
           compliance; and
       •    self-reporting and self-certification with consequences for non-
           compliance.

   BLM Response: BLM concurred with this recommendation. BLM noted
   that the OIG’s draft report acknowledges the value of using third-party
   contractors as a solution to budget reductions and staffing issues. BLM
   will develop and implement policy guidance for wind and solar
   authorizations to address monitoring, enforcement, and compliance
   requirements.

   OIG Analysis of BLM Response: We consider this recommendation
   resolved, but not implemented. The recommendation will be referred to
   the Assistant Secretary for Policy, Management and Budget for tracking
   its implementation.

9. Develop and implement Bureau-wide guidance for using competitive
   bidding on wind and solar ROW.

   BLM Response: BLM concurred with this recommendation. BLM has
   initiated formal rulemaking for a competitive wind and solar leasing
   program. The Advance Notice of Proposed Rulemaking (ANPR) was
   published in the Federal Register on December 29, 2011. Public comments
   on the ANPR are currently under review. The final rule will address
   competitive wind and solar energy leasing, rental fees, required bonding
   on wind and solar authorizations, and processing and monitoring fees.

   OIG Analysis of BLM Response: We consider this recommendation
   resolved, but not implemented. The recommendation will be referred to
   the Assistant Secretary for Policy, Management and Budget for tracking
   its implementation.




                                                                            22
Appendix 1: Scope and Methodology
Scope
Our scope included BLM’s wind and solar activities, including issued ROW,
policies, and guidance.

Methodology
We did this review from March 2010 through December 2011. We visited six
BLM offices where we interviewed renewable energy personnel; reviewed
selected wind, solar, and transmission ROW files; and observed field operations.
The sites visited were Sacramento, Moreno Valley, Palm Springs, Barstow, and
Ridgecrest, CA; and Las Vegas, NV. We also interviewed, in person or by
telephone, BLM renewable energy personnel in Washington, DC; Lakewood, CO;
Reno, NV; Cheyenne and Rawlins, WY; Prineville, OR; and Safford, AZ. We
also interviewed a National Park Service employee regarding coordinating
activities with BLM related to BLM’s wind and solar activities.

We conducted this evaluation in accordance with “Quality Standards for
Inspections” issued by the Council of Inspectors General on Integrity and
Efficiency. We believe that the work we performed provides a reasonable basis
for our conclusions and recommendations.




                                                                                23
Appendix 2: Potential Monetary
Impact

Issue                          Monetary Impact
Lost Rental Revenue            $1.2 million
Insufficient Bonding on Wind
                               $8.5 million
Projects




                                                 24
Appendix 3: Bureau’s Response
The Bureau of Land Management’s response to the draft report follows on page
26.




                                                                               25
                  United States Department of the Interior
                            BUREAU OF LAND MANAGEMENT
                                      Washington, D.C. 20240
                                       http://www.blm.gov


                                            APR 0 9 2012
In Reply Refer To:
1245/2800 (830/301)



To:            Assistant Inspector General for Audits, Inspections, and Evaluations

Through:       Marcilynn A. Burke     f-4 'J
                                          CU-      lffY'-___{)_      ~~
               Acting Assistant Secretary - Land Min\frals Management                 .

From:          Robert V. Abb o/
         ~Director

               Office of the Inspector General Evaluation Draft Report, Bureau of Land
               Management's Renewable Energy Program: A Critical Point in Renewable
               Energy Development (CR-EV-BLM-0004-2010)

Thank you for the opportunity to review and comment on the Office of the Inspector General
(OIG) draft Evaluation Report, "Bureau of Land Management's Renewable Energy Program: A
Critical Point in Renewable Energy Development" (CR-EV-BLM-0004-2010). The Bureau of
Land Management (BLM) concurs with eight of the nine recommendations and partially concurs
with the recommendation for updating policy to clearly require bonds for the BLM's renewable
energy program. The BLM acknowledges a need to reinforce existing policy and provide
additional guidance on resource protection, collection of rental revenues, and wind bonding
requirements for renewable energy projects. As explained further in the attachment, the BLM
has initiated a rulemaking effort for the competitive wind and solar energy leasing program,
which will also address several recommendations made by the OIG in its draft report.
Additionally, I am pleased to report that we have completed actions to implement two ofthe
recommendations.

As noted in the draft report, the "BLM is poised for a massive expansion of wind and solar
projects." As of AprilS, 2012, the BLM has 34 authorized wind energy development projects;
140 authorized wind site testing projects; and an additional166 pending wind energy
development and site testing applications. For solar energy development, the BLM has 10
authorized solar energy projects (one project in Nevada is nearly complete in its construction), in
addition to another 76 pending solar energy applications.

The attachment provides a summary of the actions taken or planned by the BLM to comply with
the OIG's recommendations, as well as the contact information for the responsible official and
the target dates of implementation.




                                                                                                  1
If you have any questions about this response, please contact Ray Brady, National Renewable
Energy Coordination Office Manager, at 202-912-7312, or LaVanna Stevenson, BLM Audit
Liaison Officer, at 202-912-7077.

Attachment




                                                                                              2
   Response to the Recommendations included in the Office of Inspector General Report,
     Bureau of Land Management's Renewable Energy Program: A Critical Point in
                Renewable Energy Development (CR-EV-BLM-0004-2010)

Recommendation 1: Develop and implement procedures to ensure collection of the current
rental rate on all existing wind energy agreements and timely issuance and prompt application of
future rate changes to all wind projects.

Response: The BLM currently has procedures in place-to ensure the collection of current rental
rates on existing wind site testing and development right-of-way grants. The BLM issued wind
energy policy IM 2009-043 on December 22, 2008, which addressed the processing, rental and
bonding of wind energy projects. It was issued in an effort to provide guidance to the BLM State
and Field Offices to ensure the continued efficient and timely processing of wind energy
applications. Many of the 2009 rental bills had already been sent to existing grant holders
pursuant to the previous rental policy, as established by BLM policy IM 2003-020 in October
2002. The updated rental rate, as identified in wind energy policy IM 2009-043, was not issued
with the intent of amending existing grant holder rental bills. However, after the initial bills
were sent to the grant holders, a rental notice and bill was provided wherein grant holders were
required to pay the difference in rental to the BLM for the years 2009 through 2011.

The BLM is also currently engaged in a rulemaking effort for a competitive wind and solar
energy leasing program that will also include requirements for the payment of current rental fees,
as established by the BLM, for all wind and solar energy authorizations.

The BLM will establish an implementation plan to ensure the existing procedures and policy
guidance to the BLM States is followed. The implementation plan will include a suite of actions
such as regular conference calls, video broadcasts, and a targeted Washington Office internal
review of records to ensure current rental rates are received on all existing wind energy
authorizations.             ·

Target Date: December 31,2012

Responsible Official: Michael D. Nedd, Assistant Director, Minerals and Realty Management

Recommendation 2: Determine whether BLM can make the rental rate from December 2008
retroactive in order to collect wind revenues lost during calendar years 2009 through 2011.

Response: The BLM California State Office, in consultation with the Pacific Southwest
Regional Solicitor's Office, determined that a retroactive rental for the calendar years 2009
through 2011 was appropriate. The BLM California sent decision letters in July 2011 to the 21
holders of existing grants regarding the adjusted rental for those years. Collection of retroactive
rental is currently ongoing. Sixteen grant holders have paid in full. Standard BLM collection
policies and practices are being used for the remaining five grants.




                                                                                                      3
Target Date: Completed

Responsible Official: Jim Kenna, State Director, California State Office

Recommendation 3: Determine whether a refund is appropriate for the Palm Springs-South
Coast Field Office agreements that were charged a higher rate than the established minimum rate
from 2003 through 2008.

Response: The BLM determined, in consultation with the Pacific Southwest Regional
Solicitor's Office, that a refund of rentals collected on existing authorizations charged at a rate
higher than the established "minimum" rate from 2003 through 2008 is not appropriate. Those
rentals were charged based on BLM policy IM 2003-020 which stated that the rental was a
"minimum rent," allowing for a higher rental payment if determined appropriate by the BLM.

Target Date: Completed

Responsible Official: Jim Kenna, State Director, California State Office

Recommendation 4: Issue an updated wind IM that clearly requires bonds on all projects.

Response: The BLM partially concurs with this recommendation. It was observed in the draft
report that IM 2011-096 did not rescind and replace the BLM's 2008 wind energy policy
guidance, which may have contributed to confusion about bonding requirements. However, IM
2011-096 requires bonds for all wind projects and requires that bonds be entered into the BLM's
Legacy Rehost System 2000's (LR2000) Bonds and Surety System. Under this IM, each BLM
State Director must submit to the BLM Washington Office an annual certification of bond status.

The 2011 annual certifications have been submitted to the BLM Washington Office, ensuring
that bonds are received on all site testing and development authorizations and entered into
LR2000's Bonds and Surety System. Where an authorization is missing a bond, a letter of non-
compliance has been issued to the holder, which includes a timeframe in which to provide the
bond to BLM. The BLM's current rulemaking effort for the competitive wind and solar energy
leasing program will also include requirements for bonds for all wind site testing, and wind and
solar development authorizations.

The BLM will establish an implementation plan to ensure that existing procedures and policy
guidance to the BLM States are followed, that there is a complete understanding of the policy,
that bond information is promptly and accurately entered into the Bonds and Surety System, and
that the annual certification required by IM 2011-096 is received from each BLM State Director.
The implementation plan will include a suite of actions such as regular conference calls, video
broadcasts, and a targeted Washington Office internal review of records to ensure bonds are
received on all wind energy authorizations.

Target Date: December 31, 2012



                                                                                                      4
Responsible Official: Michael D. Nedd, Assistant Director, Minerals and Realty Management

Recommendation 5: Reassess the minimum bond amounts for wind projects as well as methods
for determining the bond amount, including expanding the use of a bond review team.

Response: The BLM will review the minimum bond requirements for wind projects based upon
bonds established on recently authorized projects and the methods for determining bond amount,
including the use of a bond review team. The BLM will issue policy guidance, if appropriate, by
December 31,2012. .

Target Date: December 31, 2012

Responsible Official: Michael D. Nedd, Assistant Director, Minerals and Realty Management

Recommendation 6: Track and manage bond information on all renewable energy projects,
including the amount of the bond, when BLM requested and received the bond, contact
information for the bonded party, the type of bond, and when the bond requires updating.

Response: The BLM policy IM 2011-096 requires the entry of bonds for all wind projects into
the BLM's LR2000 Bqnds and Surety System. Recordation ofbonds in the BLM's LR2000
Bonds and Surety System includes the entry of information suggested in Recommendation 6.
Under this IM, each BLM State Director must submit to the BLM Washington Office an annual
certification of bond status. The BLM State Directors also are required to ensure that bonds are
received on all site testing and development authorizations and entered into LR2000's Bonds and
Surety System. Where an authorization is missing a bond, a letter of non-compliance has been
issued to the holder, which includes a timeframe in which to provide the bond to the BLM

Bond information for solar energy development projects is required as a standard practice for the
BLM. The BLM Washington Office has reviewed, prior to approval, every solar energy
development project authorized to date. A component ofthe review is evaluation ofthe bond
amount for the development facility. The BLM policy IM 2011-003 requires the submission of
the bond to the BLM prior to the issuance of a Notice to Proceed for project development and is
subject to Solicitor review prior to acceptance by the BLM.

To strengthen its existing policies further, the BLM will review data entered in its LR2000
Bonds and Surety System for both wind and solar authorizations and determine if additional
fields are necessary to better track and manage bond information. Additionally, the BLM will
establish an implementation plan for IM 2011-096, as it relates to wind energy authorizations,
and ensure bond information is collected for solar energy authorizations at the appropriate time.
The implementation plan will include a suite of actions such as conference calls, video
broadcasts, and targeted Washington Office internal record reviews.

Target Date: December 31,2012

Responsible Official: Michael D. Nedd, Assistant Director, Minerals and Realty Management


                                                                                                    5
Recommendation 7: Develop and implement procedures to ensure that when a project is
transferred, BLM returns the first bond to the company that obtained it and requests a new bond
from the newly assigned company.

Response: The BLM will develop and implement policy guidance to ensure that it receives new
bonds as part of the approval process for an assignment, and that it returns old bonds.

Target Date: December 31,2012

Responsible Official: Michael D. Nedd, Assistant Director, Minerals and Realty Management

Recommendation 8: Develop and implement Bureau-wide guidance for monitoring and
enforcement on solar and wind projects, including but not limited to:

   •   a consistent process for developing fees for monitoring projects;
   •   procedures to plan, conduct, and document monitoring and enforcement of regulations
       and stipulations;
   •   controls over the use ofthird-party contractors for monitoring and compliance; and
   •   self-reporting and self-certifications with consequences for non-compliance.

Response: The OIG report acknowledges the value of using third-party contractors as a solution
to budget reductions and staffing issues in the current budget environment. The BLM is
committed to strengthening its oversight role and developing management controls as a means to
increase consistency, reduce the risk of noncompliance, and strengthen environmental
protections.

The BLM will develop and implement policy guidance for wind and solar authorizations that
addresses monitoring, enforcement, and compliance requirements.

Target Date: December 31, 2012

Responsible Official: Michael D. Nedd, Assistant Director, Minerals and Realty Management

Recommendation 9: Develop and implement Bureau-wide guidance for using competitive
bidding on wind and solar ROW.

Response: The BLM has initiated formal rulemaking for a competitive wind and solar leasing
program. The Advance Notice of Proposed Rulemaking (ANPR) was published in the Federal
Register on December 29, 2011. The public comments on the ANPR are currently under review.
The Final Rule is expected to be completed by April30, 2013. The Final Rule will address
competitive wind and solar energy leasing, rental fees, required bonding on wind and solar
authorizations, and processing and monitoring fees. The BLM is pleased that the OIG concurs




                                                                                                  6
that the timing is right for the BLM to take the initiative to obtain fair market value for the use of
the public lands.

Target Date: April30, 2013

Responsible Official: Michael D. Nedd, Assistant Director, Minerals and Realty Management




                                                                                                    7
Appendix 4: Status of
Recommendations
In response to our draft report, BLM substantially concurred with all nine of our
recommendations and agreed to implement them. BLM provided corrective action
plans and an action official for each recommendation (see appendix 3). Therefore,
we consider two recommendations resolved and implemented and seven
recommendations resolved but not implemented.

 Recommendations             Status                     Action Required

 2 and 3                     Resolved and               No further action
                             implemented                required.




 1, 4, 5, 6, 7, 8, and 9     Resolved, not              The recommendations
                             implemented                will be referred to the
                                                        Assistant Secretary for
                                                        Policy, Management and
                                                        Budget for tracking of
                                                        implementation.




                                                                              33
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, Departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             Departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doioig.gov

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
